WAIVER

Supreme Court of the United States

No. 20-7710
Bertram Mann v. Volusia County Sheriff's Department
(Petitioner) (Respondent)

J DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
Jam filing this waiver on behalf of all respondents.

co Ionly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

 

 

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

D 1am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature
May 3, 2021

 

 

Francis J. Carroll, Assistant County Attorney
OM. OMs. O Mrs. O Miss
County of Volusia - Legal Department

(Type or print) Name

 

Firm

 

7 India
Address 123 W. Indiana Avenue

 

DeLand, Floride .
City & State eLand, Florida Zip 32720

Phone (386) 736-5950 Email fearroll@volusia.org

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

ce: Bertram Mann
